No. ____________
IN THE

FREDDY ANGEL TRUJILLO
Petitioner,
v.
RAYMOND MADDEN,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Moriah S. Radin, a Deputy Federal Public Defender in the Office of
the Federal Public Defender, which was appointed as counsel for Petitioner
under the Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), and who is a member
of the Bar of this Court, hereby certifies that, pursuant to Supreme Court
Rule 29.3, on September 10, 2021, a copy of the enclosed Motion for Leave to
Proceed in Forma Pauperis, Petition for a Writ of Certiorari, Appendix, and

1

